Press Releases Baton Rouge, Louisiana - 02/24/2011 - Southern University Professor Indicted
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
The United States Attorney's Office
Middle District of Louisiana
U.S. Attorney's Office
Middle District of Louisiana
777 Florida Street Suite 208
Baton Rouge, LA 70801
Tel: (225) 389-0443
Fax(225) 389-0561
Civil Fax: (225) 389-0685
February 24, 2011
Southern University Professor Indicted
BATON ROUGE, LA - United States Attorney Donald J. Cazayoux, Jr. announced that a Federal Grand Jury returned an indictment on February 24, 2011, charging PARVIZ SHARIFRAZI , 59,  of Baton Rouge, Louisiana, with mail fraud, money laundering and theft from an organization receiving federal program funds.  SCOTT D. WOODALL, 40, also of Baton Rouge, was indicted for mail fraud.  SHARIFRAZI faces a maximum sentence of 300 years in prison and WOODALL faces a maximum term of 240 years in prison.
The indictment alleges that from April 2008 to December 2009, SHARIFRAZI and WOODALL devised a scheme to defraud Southern University of $157,366 by using their positions at Southern University to bill the institution by using fraudulent invoices.  SHARIFRAZI was employed at Southern University as an Associate Professor of Mechanical Engineering and WOODALL was the Information Technologies Director.
Louisiana Inspector General Stephen Street said, "It is shocking that an Engineering Professor and an Information Technology Director -- whose job it is to help educate our young people - carefully devised this scheme to steal taxpayer money.  Against the backdrop of the funding crisis facing our colleges and universities, it is particularly outrageous.  We will continue to work with our state and federal law enforcement partners to root out this sort of corruption wherever it may exist."
James C. Lee, Special Agent in Charge of Internal Revenue Service Criminal Investigation stated, "We all suffer when federal programs are undermined by fraud.  Today's indictment should send a clear message that we intend to stop these types of fraudulent practices.  It is the goal of IRS Criminal Investigation to work with Department of Justice and other Federal and State agencies to ensure that those engaged in illegal activities are brought to justice."
U.S. Attorney Donald J. Cazayoux, Jr., stated, "We will continue to aggressively investigate and prosecute individuals who defraud public institutions.  Diverting monies meant for the public institutions to corrupt individuals will not be tolerated.  This investigation is another great example of federal and state agencies cooperating to combat such illegal activity in our community."
The investigation of SHARIFRAZI and WOODALL was conducted by the Louisiana State Inspector General's Office, Internal Revenue Service Criminal Investigations, Federal Bureau of Investigation, and United States Department of Education Office of Inspector General The case is being prosecuted by Assistant United States Attorneys Walt Green and Alan Stevens.
NOTE: An indictment is a determination by a grand jury that probable cause exists to believe that offenses have been committed by a defendant. The defendant is presumed innocent until and unless proven guilty at trial.
Top
Printable view
Last Modified: 03/01/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov